                                               32126                          Federal Register / Vol. 72, No. 111 / Monday, June 11, 2007 / Notices

                                               the HRSA Web site at http://                            ACTION:   Notice.                                      approximately 18 to 24 months before it
                                               www.hrsa.gov/grants, or through                                                                                is opened to all authorized Data Bank
                                               Grants.gov at: http://www.grants.gov. In                SUMMARY: The Office of Inspector                       entities.
                                               FY 2007, up to 120 New Access Points                    General (OIG) is announcing the
                                                                                                       availability of a Proactive Disclosure                 User Fee Amount
                                               in High Poverty Counties are estimated
                                               to be funded. HRSA anticipates                          Service (PDS) Prototype for customers of                 An annual subscription fee of $3.25
                                               awarding a minimum of $24 million for                   the Healthcare Integrity and Protection                per subject will be charged upon
                                               this activity in FY 2007 and                            Data Bank (HIPDB). The PDS was                         enrollment. This fee includes the cost of
                                               applications were due May 23, 2007.                     developed for the National Practitioner                an initial query, which automatically
                                               Subject to the availability of funds, up                Data Bank (NPDB) in response to                        will be incurred when a subject is first
                                               to 25 Planning Grants in High Poverty                   customers’ interest in real-time                       enrolled, and all reports received on the
                                               Counties will be funded, with                           monitoring of practitioner credentials.                enrolled subject over the course of the
                                               applications that were due May 16,                      As a result of the technical                           one-year subscription period. The fee
                                               2007. All applications were to be                       interoperability of the NPDB and                       was determined through economic
                                               submitted electronically through                        HIPDB, the PDS feature is also being                   analysis of the average annual rate of
                                               Grants.gov by the established due dates.                made available to HIPDB customers.                     queries performed by health care
                                                                                                       DATES: This fee will be effective June 11,             entities in relationship to the current
                                               Summary of the Funding Priority
                                                                                                       2007.                                                  query fee that is based on the actual cost
                                                 A funding priority is defined as the                  FOR FURTHER INFORMATION CONTACT: Joel                  for services. The Department will accept
                                               favorable adjustment of combined                                                                               payment for the subscription fee from
                                                                                                       Schaer, OIG Office of External Affairs,
                                               review scores of individually approved                                                                         entities via credit card or electronic
                                                                                                       (202) 619–0089, or Mark Pincus, HRSA,
                                               applications when applications meet                                                                            funds transfer. When the prototype
                                                                                                       Bureau of Health Professions, (301) 443–
                                               specified criteria. An adjustment is                                                                           period concludes, the Department may
                                                                                                       2300.
                                               made by a set, pre-determined number                                                                           change the subscription fee. Any
                                               of points. The New Access Point in High                 SUPPLEMENTARY INFORMATION: The PDS
                                                                                                                                                              changes will be announced through
                                               Poverty Counties funding opportunity                    has been initially offered as a prototype
                                                                                                                                                              notice in the Federal Register.
                                               has one funding priority of five (5)                    to authorized NPDB entities, as set forth
                                                                                                       in a HRSA notice published in the                        Dated: May 14, 2007.
                                               points for ‘‘Multi-County Applications.’’
                                                                                                       Federal Register on March 7, 2007 (72                  Daniel R. Levinson,
                                               In order to be considered for this
                                               funding priority, applicants must                       FR 10227). In accordance with                          Inspector General.
                                               demonstrate that a minimum of 15                        implementation of the PDS prototype,                   [FR Doc. E7–11207 Filed 6–8–07; 8:45 am]
                                               percent of the total target population                  authorized HIPDB customers can also                    BILLING CODE 4152–01–P
                                               will come from a county(ies) other than                 now choose to enroll all of their
                                               the eligible high poverty county in                     practitioners, providers, and suppliers
                                               which the new access point will be                      in PDS, or enroll some of their                        DEPARTMENT OF HEALTH AND
                                               located. Applicants requesting                          practitioners, providers, and suppliers                HUMAN SERVICES
                                               consideration of a funding priority must                while continuing to periodically query
                                                                                                       on others using the regular query                      National Institutes of Health
                                               initiate the request and provide the
                                               expected distribution of the target                     methods. Customers with PDS-enrolled
                                                                                                                                                              Government-Owned Inventions;
                                               population among the counties to be                     subjects will be notified within one
                                                                                                                                                              Availability for Licensing
                                               served by the high poverty county new                   business day of the HIPDB’s receipt of
                                               access point project.                                   a report on any of their enrollees. While              AGENCY: National Institutes of Health,
                                               FOR FURTHER INFORMATION CONTACT:
                                                                                                       customers can expect to receive reports                Public Health Service, HHS.
                                               Preeti Kanodia, Division of Policy and                  sooner with PDS, the format of and                     ACTION: Notice.
                                               Development, Bureau of Primary Health                   information contained in a report will
                                                                                                       remain the same.                                       SUMMARY: The inventions listed below
                                               Care, Health Resources and Services                                                                            are owned by an agency of the U.S.
                                               Administration. Ms. Kanodia may be                         The annual subscription fee during
                                                                                                       the prototype period will be $3.25 per                 Government and are available for
                                               contacted by e-mail at                                                                                         licensing in the U.S. in accordance with
                                               PKanodia@hrsa.gov or via telephone at                   practitioner, provider, or supplier. The
                                                                                                       rate is subject to change after the                    35 U.S.C. 207 to achieve expeditious
                                               (301) 594–4300.                                                                                                commercialization of results of
                                                                                                       prototype period is complete. The query
                                                 Dated: June 5, 2007.                                  fee for periodic queries will continue to              federally-funded research and
                                               Elizabeth M. Duke,                                      remain at $4.75 per name.                              development. Foreign patent
                                               Administrator.                                                                                                 applications are filed on selected
                                               [FR Doc. E7–11220 Filed 6–8–07; 8:45 am]
                                                                                                       PDS Enrollment Availability                            inventions to extend market coverage
                                               BILLING CODE 4165–15–P                                    The PDS prototype became available                   for companies and may also be available
                                                                                                       to NPDB queries effective April 30,                    for licensing.
                                                                                                       2007. An invitation to participate in this             ADDRESSES: Licensing information and
                                               DEPARTMENT OF HEALTH AND                                prototype was extended first to                        copies of the U.S. patent applications
                                               HUMAN SERVICES                                          organizations that assisted HRSA with                  listed below may be obtained by writing
                                                                                                       designing and pricing, which occurred                  to the indicated licensing contact at the
                                               Office of Inspector General                             between 2003 and 2005. All entities                    Office of Technology Transfer, National
                                                                                                       registered with the HIPDB and/or the                   Institutes of Health, 6011 Executive
cprice-sewell on PROD1PC67 with NOTICES




                                               Healthcare Integrity and Protection
                                                                                                       NPDB have been invited to participate                  Boulevard, Suite 325, Rockville,
                                               Data Bank: Announcement of
                                                                                                       to meet a predetermined number for                     Maryland 20852–3804; telephone: 301/
                                               Proactive Disclosure Service Opening
                                                                                                       subjects to be monitored. Once this                    496–7057; fax: 301/402–0220. A signed
                                               Date and User Fees
                                                                                                       number is achieved, enrollment in the                  Confidential Disclosure Agreement will
                                               AGENCY: Office of Inspector General                     prototype will close. It is anticipated                be required to receive copies of the
                                               (OIG), HHS.                                             that the PDS prototype period will last                patent applications.


                                          VerDate Aug<31>2005   15:28 Jun 08, 2007   Jkt 211001   PO 00000   Frm 00071   Fmt 4703   Sfmt 4703   E:\FR\FM\11JNN1.SGM   11JNN1
